TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Withholding Compliance Program Is
                 Improving Taxpayer Compliance; However,
                 Additional Enforcement Actions Are Needed



                                         August 29, 2008

                              Reference Number: 2008-40-167




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 29, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Withholding Compliance Program Is
                             Improving Taxpayer Compliance; However, Additional Enforcement
                             Actions Are Needed (Audit # 200840002)

 This report presents the results of our review to evaluate the effectiveness of the Internal
 Revenue Service’s (IRS) actions on underwithheld tax compliance cases. This audit was
 conducted as part of our Fiscal Year 2008 Annual Audit Plan and addresses the management
 challenge associated with Tax Compliance Initiatives.

 Impact on the Taxpayer
 The goal of the Withholding Compliance Program is to ensure that taxpayers have enough
 income taxes withheld from their wages to meet their tax obligations. While the Program has
 improved taxpayer compliance, more effort is needed to ensure that employers comply with the
 tax withholding requirements of the lock-in letters and to penalize taxpayers making false
 statements that result in the underwithholding of taxes. Those taxpayers who voluntarily file
 their tax returns and pay their taxes in a timely manner expect that others will be held to the same
 standards of compliance with the law.

 Synopsis
 The Withholding Compliance Program analyzes wage and tax information reported on the Wage
 and Tax Statement (Form W-2) and tax return data to identify taxpayers who have not had
 enough taxes withheld and are also not compliant with filing and/or paying their taxes. In most
 cases, the IRS systemically issues notices called “lock-in letters” to both employers and
                            The Withholding Compliance Program Is Improving
                          Taxpayer Compliance; However, Additional Enforcement
                                          Actions Are Needed


compliance functions are not submitting Forms W-4 with their referrals. As a result, during
Fiscal Year 2006, only 29 Form W-4 civil penalties were assessed by the Withholding
Compliance function in Lowell, Massachusetts, and none were assessed in Fiscal Year 2007.
If IRS employees in other functions had followed current policies and made an effort to obtain
the questionable Forms W-4 from employers and referred them to the Withholding Compliance
Program, penalties potentially totaling approximately $11 million could have been assessed
against taxpayers referred to the Withholding Compliance Program by other IRS functions in
Fiscal Years 2006 and 2007. If the IRS consistently assessed penalties on all underwithheld
taxpayers for whom lock-in letters were issued, penalties potentially totaling approximately
$127 million could have been assessed against these taxpayers.
The Internal Revenue Manual4 advises all IRS employees working compliance cases to consider
using lock-in letters to correct taxpayers’ withholding as a means of ensuring future compliance.
However, IRS employees outside of the Withholding Compliance Program do not have access to
the systems used to issue lock-in letters. Instead, they are required to submit a referral to the
Withholding Compliance Program for lock-in letter issuance. According to Program
management, the referral process is necessary because access to the Withholding Compliance
Program systems that process and issue lock-in letters cannot be given to other IRS employees
until these systems are linked. Upgrading the Withholding Compliance Program case processing
systems to create a single data entry point and allowing other IRS functions to issue lock-in
letters would make the current referral process unnecessary.

Recommendations
We recommended that the Commissioner, Wage and Investment Division, ensure that the
Director, Compliance, Wage and Investment Division: 1) develops a process to identify
employers who do not adequately withhold taxes after receiving a lock-in letter; 2) works with
the Large and Mid-Size Business, Small Business/Self-Employed, and Tax Exempt and
Government Entities Divisions to develop examination criteria for referring these employers;
3) coordinates with the Large and Mid-Size-Business, Small Business/Self-Employed, and Tax
Exempt and Government Entities Divisions to develop and deliver training to appropriate IRS
employees on the existing criteria for the current referral process; and 4) forms a team to
research and develop criteria that will expand use of the Form W-4 civil penalty beyond the
current limitation of referrals and special projects. Related guidance and training should then be
provided to the appropriate IRS employees to ensure consistent application of the criteria.
Finally, we recommended that the Commissioner, Wage and Investment Division, create a single
data entry point for processing Withholding Compliance Program cases and, through the Deputy


4
    Internal Revenue Manual Section 5.19.11.3.4(2).
                                                                                                 3
                      The Withholding Compliance Program Is Improving
                    Taxpayer Compliance; However, Additional Enforcement
                                    Actions Are Needed


Commissioner for Services and Enforcement, provide lock-in letter issuance authority to other
IRS functions.

Response
IRS management generally agreed with all of our recommendations. The Wage and Investment
Division will develop an annual report that will identify employees who continue to work for the
same employer after a lock-in letter has been issued yet have no significant change in their
withholding patterns. The Wage and Investment Division will provide pertinent employer and
worker information where a lock-in letter was deemed necessary. This information will be
provided in an electronic format to be used in the Service-Wide Employment Tax Research
System, currently under development. Using this System, the Small Business/Self-Employed
Division will analyze the data and incorporate it into the scoring model to identify cases with the
greatest compliance risk. The data will be available in the Service-Wide Employment Tax
Research System for use in case selection processes for Large and Mid-Size Business Division
and Tax Exempt and Government Entities Division employers.
The Wage and Investment Division will also develop a corporate Continuing Professional
Education training module outlining the Withholding Compliance Program referral criteria. This
training module will be provided to Large and Mid-Size Business, Tax Exempt and Government
Entities, and Small Business/Self-Employed Division management to allow them to deliver it to
the appropriate employees within their Divisions. In addition, the Wage and Investment
Division will establish a cross-functional team to evaluate current W-4 civil penalty guidelines
and make recommendations on situations in which the guidelines can be expanded. Based on the
findings, the Division will reevaluate the need to develop training.
As part of its long-term strategy, the Wage and Investment Division plans to develop a
web-based format that will allow a single point of entry that, in turn, will allow communication
between compliance systems. However, because this is a significant programming change, the
Wage and Investment Division is currently working through the IRS Information Technology
Modernization, Vision, and Strategy process to secure funding for Fiscal Year 2011. Once the
funding decisions are approved, the Division will create a timeline for development, testing, and
implementation of the web-based program. Upon implementation, the Division will reassess
how individual authority to issue lock-in letters could be delegated to other IRS functions.
While IRS management agreed with our recommendations, they did not believe that our sample
size was large enough to make reliable projections to the population. As a result, the IRS
disagreed with the outcome measures in Appendix IV of this report. We believe that our sample
size was appropriate and our projections accurate within the stated precision. Furthermore, a
portion of our outcome measure was not based on a sample. Rather, it was based on the total
population of cases referred by other IRS functions. Management’s complete response to the
draft report is included as Appendix V.
                                                                                                  4
                    The Withholding Compliance Program Is Improving
                  Taxpayer Compliance; However, Additional Enforcement
                                  Actions Are Needed


Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                         5
                              The Withholding Compliance Program Is Improving
                            Taxpayer Compliance; However, Additional Enforcement
                                            Actions Are Needed




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Lock-in Letters Have Generally Improved Taxpayer Compliance...............Page 4
          Additional Actions Are Needed to Further Improve Taxpayer
          Withholding Compliance ..............................................................................Page 8
                    Recommendations 1 through 3:.........................................Page 12

                    Recommendation 4:........................................................Page 13

          Changes Are Needed to Improve the Effectiveness of Processing
          Referral Cases ...............................................................................................Page 13
                    Recommendation 5:........................................................Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measures...............................................................Page 19
          Appendix V – Management’s Response to the Draft Report .......................Page 21
         The Withholding Compliance Program Is Improving
       Taxpayer Compliance; However, Additional Enforcement
                       Actions Are Needed




                   Abbreviations

FY           Fiscal Year
IRS          Internal Revenue Service
QW-4         Questionable Form W-4
TY           Tax Year
                        The Withholding Compliance Program Is Improving
                      Taxpayer Compliance; However, Additional Enforcement
                                      Actions Are Needed




                                        Background

The Internal Revenue Code1 requires employers to withhold taxes from employees’ (taxpayers’)
pay so that the taxes are paid to the Department of the Treasury on a ratable basis throughout the
year. Proper withholding helps to ensure that taxpayers do not end the year with substantial tax
balances due. In Fiscal Year (FY) 2007, $928.6 billion (more than one-third of total tax
revenues for the year) were collected through income tax withholding. Because of income tax
withholding, tax payment compliance is generally very high for wage earners. Nonetheless,
underwithholding of tax on wages remains a major cause of tax noncompliance for some
individuals.
The Internal Revenue Service (IRS) Questionable Form W-4 (QW-4) Program was designed
to address those taxpayers attempting to evade income tax withholding requirements by
overstating withholding allowances or improperly claiming to be exempt from withholding. The
QW-4 Program required employers to submit to the IRS all Employee’s Withholding Allowance
Certificates (Form W-4) that claimed a total exemption from withholding on wages of more than
$200 per week or more than 10 withholding allowances. After the IRS reviewed the Form W-4
information and determined that the employee was not withholding enough taxes, the IRS would
issue a notice, commonly referred to as a “lock-in letter,”
to the employer specifying the maximum number of
withholding allowances permitted for the employee.            The Treasury Inspector General
                                                                        for Tax Administration
In October 2002, the Treasury Inspector General for Tax             previously reported that the IRS
Administration reported2 that the QW-4 Program was not                has had difficulty identifying
effectively identifying instances when employers and                 employers who do not comply
taxpayers were not complying with directives to increase              with notices to increase tax
                                                                         withholding amounts.
withholding amounts. In addition, management
information reports did not identify the most productive
cases.
In November 2003, the Government Accountability Office raised the following concerns about
the QW-4 Program:3




1
  Internal Revenue Code Section 3402.
2
  Improvements to the Questionable Form W-4 Program Are Needed to Determine Program Impact on Taxpayer
Compliance (Reference Number 2003-40-006, dated October 2002).
3
  IRS’s Use of Information on Taxpayers Claiming Many Allowances or Exemption From Federal Income Tax
Withholding (Letter Report GAO-04-79R, dated November 6, 2003).
                                                                                                  Page 1
                            The Withholding Compliance Program Is Improving
                          Taxpayer Compliance; However, Additional Enforcement
                                          Actions Are Needed



      •    Accuracy: The IRS had no means to determine the extent of employer compliance or
           noncompliance with QW-4 Program regulations, and anecdotal information strongly
           suggested that it was low.
      •    Currency: The IRS had no means to update information when employees subsequently
           filed non-questionable Forms W-4.
      •    Fairness: The IRS reviewed employee data received only from employers who complied
           with QW-4 Program reporting regulations.
In response to the Government Accountability Office report, the IRS discontinued the
QW-4 Program and in January 2004 established the Withholding Compliance Task Force. The
Task Force conducted a comprehensive review of the QW-4 Program and recommended that it
be replaced by the Withholding Compliance Program, which is based on the Wage and Tax
Statement (Form W-2).
The Task Force research showed that underwithholding of taxes on wages is a major cause of tax
noncompliance for individuals who are primarily wage earners. Even though wage earners as a
group pay 98 percent of the taxes they report on their individual income tax returns,
approximately $7.6 billion of potentially collectible taxes is lost annually due to withholding
noncompliance. Figure 1 shows the estimate of potentially collectible taxes lost annually from
wage-earning taxpayers.
              Figure 1: Estimate of Potentially Collectible Taxes Lost Annually
                                 Due to Underwithholding
                                                                    Number of         Dollars Lost
                      Taxpayer Compliance Status
                                                                    Taxpayers          Annually

        Non-filer With Substantial Wages                                5.5 million       $4.9 billion

        Non-filer With Invalid Social Security Number                   7.7 million       $1.0 billion

        Taxpayer With Balance Due After Remittance                      1.5 million       $1.7 billion

             Totals                                                    14.7 million       $7.6 billion
      Source: IRS Withholding Compliance Task Force Report dated January 31, 2005.

In FY 2005, the IRS implemented the Withholding Compliance Program with the case selection
methodology based on underwithheld wages reported on the Form W-2. According to the
Internal Revenue Manual,4 the Withholding Compliance Program’s mission is “to ensure that
taxpayers who have serious underwithholding problems are brought into compliance with



4
    Internal Revenue Manual Section 5.19.11.1(1).
                                                                                                     Page 2
                         The Withholding Compliance Program Is Improving
                       Taxpayer Compliance; However, Additional Enforcement
                                       Actions Are Needed



[F]federal income tax withholding requirements . . . . The goal is to correct withholding to
ensure that taxpayers have enough income tax withheld to meet their tax obligations.”
The pilot Withholding Compliance Program, based on Tax Year (TY) 2003 Form W-2 cases,
was worked at the IRS Fresno Campus5 in Fresno, California, between December 2004 and
December 2005. In October 2005, the Withholding Compliance Program was moved to the
Andover Campus in Lowell, Massachusetts. The Andover Campus team began work on the
TY 2004 Form W-2 cases, while the Fresno Campus team finished working the TY 2003
Form W-2 cases through December 2005.
This review was performed at the Withholding Compliance function in Lowell, Massachusetts,
and the Wage and Investment Division Headquarters in Atlanta, Georgia, during the period
July 2007 through April 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




5
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 3
                        The Withholding Compliance Program Is Improving
                      Taxpayer Compliance; However, Additional Enforcement
                                      Actions Are Needed



withholding increase of $689,582). Figure 2 shows the percentage of total withholding to wages
for TYs 2003 and 2006.
          Figure 2: Overall Tax Withholding Improvement for TYs 2003
                                    and 2006

           Tax Year                  Wages                  Withholding              Percentage

             2003                  $6,216,310                $130,998                     2.1%

             2006                  $5,773,870                $820,580                   14.2%
   Source: Treasury Inspector General for Tax Administration analysis of sampled TYs 2003 and 2006
   Forms W-2 data.

For those taxpayers who worked for the same employers in TYs 2003 and 2006 (i.e., employers
who were issued a lock-in letter), there was an increase in the percentage of withholding as
compared to wages from 1.8 percent to 15.2 percent. For those same taxpayers who also worked
for a new employer in TY 2006 (i.e., employers who were not issued a lock-in letter), the
percentage of withholding to wages with the new employer increased from 1.8 percent to
13.9 percent. Figure 3 shows the percentage of total withholding to wages for taxpayers who
worked for the same employers in TYs 2003 and 2006, as well as the percentage of withholding
to wages for these same taxpayers who also worked for a new employer in TY 2006.
           Figure 3: Tax Withholding Improvement for TYs 2003 and 2006
                                by Employer Type

                    TY 2003                                             TY 2006

     Wages       Withholding     Percentage     Employer        Wages       Withholding     Percentage

                                                Same         $3,838,455        $582,166        15.2%
   $4,654,338       $82,726         1.8%
                                                Different      $569,456         $78,925        13.9%
  Source: Treasury Inspector General for Tax Administration analysis of sampled TYs 2003 and 2006
  Forms W-2 data.

For those taxpayers who worked for a new employer after TY 2003, the increase in withholding
could have been caused by a change in taxpayer behavior resulting from the previous lock-in
letter but might also have occurred for other reasons related to the change in employment.
However, it appears that lock-in letters have a positive effect on withholding compliance for
those taxpayers who continue to work for the same employer. Based on our analysis, we




                                                                                                     Page 5
                          The Withholding Compliance Program Is Improving
                        Taxpayer Compliance; However, Additional Enforcement
                                        Actions Are Needed



been approximately 20 percent, which would have resulted in $92,680 in additional withholding
collected.
Tax assessments can be applied to employers to penalize those that do not comply with the
lock-in letters. The Internal Revenue Code requires employers to withhold taxes from wages
paid to employees.17 Based on our results, we estimated that from the TY 2003 population of
27,207 taxpayers, 4,100 taxpayers are still underwithholding taxes because their employers did
not comply with the lock-in letter instructions. Further, we estimated that employers who did not
comply with the lock-in letters are liable for $34.5 million in underwithheld taxes for TY 2006.18
The Withholding Compliance Program does not have a process in place to identify employers
who fail to comply with the lock-in letters, which has contributed to the significant
underwithholding conditions identified during this review. Current Withholding Compliance
Program management reports used to monitor Program effectiveness do not provide data on
employer compliance with lock-in letters. Further, the corporate filing and tax withholding
reports that the Withholding Compliance Program is developing do not contain any analysis on
employer compliance.
In response to our findings, Withholding Compliance Program management stated that they
would give the Small Business/Self-Employed Division Employment Tax Program access to the
Withholding Compliance Program data file to develop audit leads for employer examinations.
However, according to Withholding Compliance Program management, this initiative had not
been started due to funding issues. Given the delay, Withholding Compliance Program
management has requested and is still waiting for personnel from the Small Business/
Self-Employed Division Employment Tax Program to provide system guidelines to enable the
referral of employer cases.

Taxpayers are generally not penalized for making false statements that result in
the underwithholding of taxes
The Internal Revenue Code19 and related tax regulations allow assessment of a $500 civil penalty
for furnishing a false statement on the Form W-4 if 1) the statement made on the Form W-4
results in less income tax withheld than what would have been withheld if the Form W-4 had
been correctly completed and 2) there was no reasonable basis for such a statement. Prior to
creation of the Withholding Compliance Program, employers were required to submit to the IRS

17
   Specifically, Internal Revenue Code Section 3402 states that “. . . every employer making payment of wages shall
deduct and withhold upon such wages a tax determined in accordance with tables or computational procedures
prescribed by the Secretary [of the Department of the Treasury].” If an employer does not properly withhold these
taxes, the employer is liable for paying the employee’s portion to the IRS. Internal Revenue Code Section 3403
states that “The employer shall be liable for the payment of the tax required to be deducted and withheld under this
chapter [collection of income tax at source on wages]. . . .”
18
   See Appendix IV for details.
19
   Internal Revenue Code Section 6682.
                                                                                                            Page 9
                          The Withholding Compliance Program Is Improving
                        Taxpayer Compliance; However, Additional Enforcement
                                        Actions Are Needed



all Forms W-4 on which the employee 1) erroneously claimed a total exemption from
withholding on wages of more than $200 per week or 2) claimed more than 10 withholding
allowances. IRS procedures require that a copy of the erroneous Form W-4 be obtained to assert
the civil penalty.
In April 2005, the Code of Federal Regulations20 was changed to no longer require employers to
routinely submit questionable Forms W-4 to the IRS. Instead, employers have to submit the
Form W-4 only if directed to do so by the IRS in a written notice or under any published
guidance.21
In May 2006, even though the scope of the IRS’ authority to assess the $500 civil penalty had
not changed, the Internal Revenue Manual22 was revised to state that the Form W-4 civil penalty
will be assessed by the Withholding Compliance Program only on referrals23 from other IRS
functions or special projects. However, we believe that this policy is improper because it could
result in inconsistent treatment of similarly situated taxpayers solely on the basis of whether their
cases were referred from another IRS function. Further, it appears that IRS employees in other
functions are not submitting Forms W-4 with their referrals. As a result, during FY 2006, only
29 Form W-4 civil penalties were assessed by the Withholding Compliance function in
Lowell, Massachusetts, and none were assessed in FY 2007. Figure 6 shows the number of
penalties assessed as compared to the number of taxpayers issued lock-in letters by the
Withholding Compliance Program, as well as the number of taxpayer referrals from other IRS
functions by fiscal year.




20
   26 Code of Federal Regulations Section 31.3402(f)(2)-1 (2005).
21
   Published guidance means a revenue procedure or notice published in the Internal Revenue Bulletin. The Internal
Revenue Bulletin is the authoritative instrument of the IRS Commissioner for announcing official rulings and
revenue procedures of the IRS and for publishing Department of the Treasury decisions, executive orders, tax
conventions, legislation, court decisions, and other items of general interest.
22
   Internal Revenue Manual Section 5.19.11.5(5).
23
   In addition to working its selected inventory, the Withholding Compliance Program issues lock-in letters to
underwithheld taxpayers based on referrals from other IRS functions.



                                                                                                         Page 10
                          The Withholding Compliance Program Is Improving
                        Taxpayer Compliance; However, Additional Enforcement
                                        Actions Are Needed



                   Figure 6: Taxpayers Issued Lock-in Letters Compared to
                   Form W-4 Civil Penalties Assessed in FYs 2006 and 2007
                       Taxpayers Issued           Referred Taxpayers         Penalties       Total Penalty
         Fiscal Year
                        Lock-in Letters         Issued Lock-in Letters       Assessed         Amount24

            2006             122,140                      9,182                   29            $14,500

            2007             131,803                     12,786                    0               $0
     Source: IRS Withholding Compliance Program management and Treasury Inspector General for Tax
     Administration analysis of Individual Master File data.

IRS employees do not consistently assess the Form W-4 civil penalty on underwithheld
taxpayers. If IRS employees in other functions had followed current policies and made an effort
to obtain the questionable Forms W-4 from employers and referred them to the Withholding
Compliance Program, penalties potentially totaling approximately $11 million could have been
assessed against taxpayers referred to the Withholding Compliance Program by other IRS
functions in FYs 2006 and 2007. If the IRS removed its current limitations and assessed
penalties on all underwithheld taxpayers who were issued lock-in letters, penalties potentially
totaling approximately $127 million could have been assessed against these taxpayers.25
According to the Internal Revenue Manual,26 penalties exist to encourage voluntary compliance
by supporting the standards of behavior expected by the Internal Revenue Code. Penalties
encourage voluntary compliance by:
     •    Defining standards of compliant behavior.
     •    Defining remedial consequences for noncompliance.
     •    Providing monetary sanctions against taxpayers who do not meet the standards.
To promote the fairness of our tax system and encourage voluntary compliance, the IRS has a
responsibility to impose penalties for noncompliant taxpayer behavior consistently and equitably.
Those taxpayers who voluntarily file their tax returns and pay their taxes in a timely manner
expect that others will be held to the same standards of compliance with the law. Therefore,
those taxpayers who make false statements on Form W-4 in an effort to avoid paying taxes



24
   The total penalty amount was calculated by multiplying the $500 penalty by the number of penalties assessed
during the fiscal year (i.e., $500 x 29 = $14,500).
25
   For both the $11 million and $127 million penalty estimates, our calculations are based on the total number of
taxpayers issued lock-in letters. Some of these taxpayers could have provided supporting information that resulted
in the Withholding Compliance Program rescinding the lock-in letter withholding rate. As a result, these taxpayers
would not be subject to the Form W-4 civil penalty because their Forms W-4 would be considered correct. Even
though Withholding Compliance Program management could not provide us with the number of taxpayers who fit
this category, we believe that this number would be fairly small.
26
   Internal Revenue Manual Section 20.1.1.2.
                                                                                                          Page 11
                       The Withholding Compliance Program Is Improving
                     Taxpayer Compliance; However, Additional Enforcement
                                     Actions Are Needed



should be subject to the penalties provided by law. The deterrent effect of the penalties might
help to reduce the overall rate of noncompliance in this area.

Recommendations
The Commissioner, Wage and Investment Division should ensure that the Director, Compliance,
Wage and Investment Division:
Recommendation 1: Develops a process to identify those employers who do not adequately
withhold taxes from their employees after receiving a lock-in letter.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division will develop an annual report that will identify employees
       who continue to work for the same employer after a lock-in letter has been issued yet
       have no significant change in their withholding patterns.
Recommendation 2: Works with the Large and Mid-Size Business, Small Business/
Self-Employed, and Tax Exempt and Government Entities Divisions to develop employer
examination criteria for referring those employers that did not follow lock-in letter instructions.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division will provide pertinent employer and worker information
       where a lock-in letter was deemed necessary. This information will be provided in an
       electronic format to be used in the Service-Wide Employment Tax Research System,
       currently under development. Using this System, the Small Business/Self-Employed
       Division will analyze the data and incorporate it into the scoring model to identify cases
       with the greatest compliance risk. The data will be available in the Service-Wide
       Employment Tax Research System for use in case selection processes for Large and
       Mid-Size Business Division and Tax Exempt and Government Entities Division
       employers.
Recommendation 3: Coordinates with the Large and Mid-Size Business, Small
Business/Self-Employed, and Tax Exempt and Government Entities Divisions to develop and
deliver training to appropriate IRS employees on the existing criteria for the current referral
process.
       Management’s Response: IRS management agreed with this recommendation. The
       Wage and Investment Division will develop a corporate Continuing Professional
       Education training module outlining the Withholding Compliance Program referral
       criteria. This training module will be provided to Large and Mid-Size Business, Tax
       Exempt and Government Entities, and Small Business/Self-Employed Division
       management to allow them to deliver it to the appropriate employees within their
       Divisions.


                                                                                            Page 12
                            The Withholding Compliance Program Is Improving
                          Taxpayer Compliance; However, Additional Enforcement
                                          Actions Are Needed



Recommendation 4: Works with the Large and Mid-Size Business, Small Business/
Self-Employed, and Tax Exempt and Government Entities Divisions to research and develop
criteria that will expand use of the Form W-4 civil penalty beyond the current limitation of
referrals and special projects. Guidance and training should then be provided to the appropriate
IRS employees to ensure consistent application of the criteria.
           Management’s Response: IRS management agreed with this recommendation in
           part. The Wage and Investment Division will establish a cross-functional team to
           evaluate current Form W-4 civil penalty guidelines and make recommendations on
           situations in which, if warranted, the guidelines can be expanded. Based on the findings,
           the Wage and Investment Division will reevaluate the need to develop training, which in
           turn could be turned over to the other operating divisions for delivery.
           While IRS management agreed with the above four recommendations, they did not
           believe that our sample size was large enough to make reliable projections to the
           population. As a result, the IRS disagreed with the outcome measures in Appendix IV of
           this report.
           Office of Audit Comment: We are pleased that IRS management agreed to
           implement the above recommendations. However, we do not agree with management’s
           assessment of the projected outcome measures. We believe that our sample size was
           appropriate and our projections accurate within the stated precision. The purpose of audit
           sampling is to identify potential problems and to quantify their effect to the extent
           possible. We balance the cost of audit oversight with the fiscal expectations of Congress
           and the taxpaying public. While a larger sample might identify less common errors, our
           sample was adequate to identify and quantify the issues found in the Withholding
           Compliance Program that our recommendations and related outcome measures address.
           Furthermore, a portion of our outcome measures was not based on a sample. Rather, it
           was based on the total population of cases referred by other IRS functions.

Changes Are Needed to Improve the Effectiveness of Processing
Referral Cases
The Internal Revenue Manual27 advises all IRS employees working compliance cases to consider
using lock-in letters to correct taxpayers’ withholding as a means of ensuring future compliance.
However, IRS employees outside of the Withholding Compliance Program do not have access to
the systems used to issue lock-in letters. Instead, they are required to submit a referral to the
Withholding Compliance Program for lock-in letter issuance.




27
     Internal Revenue Manual Section 5.19.11.3.4(2).
                                                                                             Page 13
                         The Withholding Compliance Program Is Improving
                       Taxpayer Compliance; However, Additional Enforcement
                                       Actions Are Needed



For example,28 a taxpayer who had not paid income taxes over the last several years is working
with an IRS employee from the Automated Collection System.29 The employee determines that
the taxpayer continues to file balance-due tax returns because he or she has not had enough tax
withheld from his or her wages. The IRS employee recommends that the taxpayer change his or
her withholding rate, but the taxpayer refuses. To ensure a change in the taxpayer’s withholding,
the IRS employee must submit a referral to the Withholding Compliance Program for a lock-in
letter to be issued to the taxpayer’s employer(s). Once a referral is received by the Withholding
Compliance Program, it is worked just like any other manually screened case. According to
Withholding Compliance Program management, referral cases are considered the second highest
work priority and are to be resolved within 30 calendar days of receipt.
In FYs 2006 and 2007, 24,864 taxpayers were referred by other IRS functions to the
Withholding Compliance Program for lock-in letter consideration. During the same periods,
lock-in letters were issued to 21,968 referred taxpayers and their employers.
According to Withholding Compliance Program management, the referral process is necessary
because access to the Withholding Compliance Program systems that process and issue lock-in
letters cannot be given to other IRS employees until these systems are linked. Currently, the
Withholding Compliance Program uses three separate information systems for case processing:
the Integrated Data Retrieval System,30 Desktop Integration,31 and the Withholding Compliance
System.32 Because these systems are not linked, case information must be entered independently
on all three systems for manually screened and/or referred cases. To maintain the integrity of the
information being input to these systems, the Withholding Compliance Program controls all case
processing and issuance of lock-in letters.
Upgrading the Withholding Compliance Program case processing systems to create a single data
entry point and allowing other IRS functions to issue lock-in letters would make the current
referral process unnecessary. Taxpayer underwithholding could be immediately addressed by
other IRS functions, thereby reducing the amount of time needed to correct the withholding for
“referred” taxpayers. In addition, a single data entry point would allow Withholding Compliance
Program employees to work more underwithholding cases by reducing the amount of time
currently being spent on inputting information to three separate systems.

28
   This hypothetical example is provided for illustrative purposes only.
29
   A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
30
   IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
31
   Desktop Integration provides employees with access to multiple IRS systems through their computers and allows
for inventory management, case delivery, history narratives, print-to-fax capabilities for sending information to
taxpayers, and electronic referral generation.
32
   The Withholding Compliance System uses the Form W-2 to identify employees with a potential underwithholding
problem that could be causing tax compliance problems. This System consists of two applications: the Withholding
Compliance System Case Creation and the Withholding Compliance System Database.
                                                                                                       Page 14
                     The Withholding Compliance Program Is Improving
                   Taxpayer Compliance; However, Additional Enforcement
                                   Actions Are Needed



Recommendation
Recommendation 5: The Commissioner, Wage and Investment Division, should create a
single data entry point for processing Withholding Compliance Program cases and, through the
Deputy Commissioner for Services and Enforcement, provide lock-in letter issuance authority to
other IRS functions.
       Management’s Response: IRS management agreed with this recommendation. As
       part of its long-term strategy, the Wage and Investment Division plans to develop a
       web-based format that will allow a single point of entry that, in turn, will allow
       communication between compliance systems. However, because this is a significant
       programming change, the Wage and Investment Division is currently working through
       the IRS Information Technology Modernization, Vision, and Strategy process to secure
       funding for Fiscal Year 2011. Once the funding decisions are approved, it will create a
       timeline for development, testing, and implementation of the web-based program. Upon
       implementation, the Wage and Investment Division will reassess how individual
       authority to issue lock-in letters could be delegated to other IRS functions.




                                                                                       Page 15
                      The Withholding Compliance Program Is Improving
                    Taxpayer Compliance; However, Additional Enforcement
                                    Actions Are Needed



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the effectiveness of the IRS’ actions on
underwithheld tax compliance cases. Unless otherwise noted, our limited tests of the reliability
of data obtained from IRS systems did not identify any errors. We validated the reliability of
computer-processed data by scanning the data received for blank, incomplete, illogical, or
improper data. In addition, we traced a judgmental sample of each data set to IRS source files to
ensure accuracy. We did not perform any testing of internal controls over the systems that were
the sources of our data due to the scope of the review. To accomplish the audit objective, we:
I.     Determined how the IRS monitors and measures the success of the Withholding
       Compliance Program to ensure that taxpayers who have serious underwithholding
       problems are brought into compliance with Federal withholding requirements by
       interviewing Withholding Compliance Program management and by obtaining and
       evaluating related documentation.
II.    Determined the effectiveness of the lock-in letters issued by the Withholding Compliance
       Program in improving taxpayer withholding compliance.
       A. Interviewed Withholding Compliance Program management to identify what
          processes are in place to measure the effectiveness of the lock-in letters.
       B. Selected and evaluated a statistically valid random attribute sample of 73 taxpayers
          from a population of 27,207 TY 2003 Withholding Compliance Program cases
          processed between December 2004 and December 2005. Our sample size was
          determined based on a 95 percent confidence level, an expected error rate of
          5 percent, and precision of +5 percent. Our sampling methodology is sufficient
          enough to allow us to project our sample results to the population.
III.   Determined if the IRS is using penalty assessment authority to encourage taxpayers to
       have adequate taxes withheld from their wages by interviewing Withholding Compliance
       Program management and analyzing the Employee’s Withholding Allowance Certificate
       (Form W-4) civil penalties assessed by the Withholding Compliance function in
       Lowell, Massachusetts, from October 2005 to October 2007.




                                                                                         Page 16
                     The Withholding Compliance Program Is Improving
                   Taxpayer Compliance; However, Additional Enforcement
                                   Actions Are Needed



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Marybeth Schumann, Director
Bryce Kisler, Audit Manager
Alan Lund, Lead Auditor
Julia Tai, Lead Auditor
Tanya Adams, Senior Auditor
Kristi Larson, Senior Auditor
Jean Kao, Auditor




                                                                                   Page 17
                    The Withholding Compliance Program Is Improving
                  Taxpayer Compliance; However, Additional Enforcement
                                  Actions Are Needed



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities SE:T
Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief, Filing Compliance, Wage and Investment Division SE:W:CP:FPC:FC
Field Director, Compliance Services (Andover), Wage and Investment Division
SE:W:CP:CS:AN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Compliance, Wage and Investment Division
SE:W:CP




                                                                                 Page 18
                          The Withholding Compliance Program Is Improving
                        Taxpayer Compliance; However, Additional Enforcement
                                        Actions Are Needed



                                                                                              Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $34.5 million in additional tax withholding in TY 2006 could
    have resulted if the Withholding Compliance Program had ensured that employers complied
    with the lock-in letter instructions and withheld taxes from their employees at the rates
    specified in the lock-in letters (see page 8).

Methodology Used to Measure the Reported Benefit:
We computed the potential increase in revenue if the Withholding Compliance Program had
ensured employers’ compliance with lock-in letter instructions based of the results of our
statistically valid random attribute sample of 73 taxpayers whose employers were sent lock-in
letters due to underwithholding on wages earned in TY 2003. The sample was selected from a
population of 27,207 TY 2003 Withholding Compliance Program cases processed from
December 2004 through December 2005. Our sample size was determined based on a 95 percent
confidence level, an expected error rate of 5 percent, and precision of +5 percent. We applied
the $1,269.59 sample average underwithheld dollars1 to the 27,207 cases in the population to
arrive at an estimated $34.5 million2 in total underwithheld taxes. The precision is
±$23.6 million, which results in a potential underwithheld dollar range of $11.0 million to
$58.1 million.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $11 million in additional Employee’s Withholding Allowance
    Certificate (Form W-4) civil penalty assessments in FYs 2006 and 2007 could have resulted
    if IRS employees had followed the Internal Revenue Manual,3 Internal Revenue Code,4 and



1
  The $1,269.59 is the average [$92,680/73] of the TY 2006 estimated underwithheld taxes for the sample of
73 taxpayers shown in Figure 5 in the report.
2
  The figure is rounded to the nearest million. The actual amount was $34,541,735.
3
  Internal Revenue Manual Section 5.19.11.5(5).
4
  Internal Revenue Code Section 6682.
                                                                                                        Page 19
                          The Withholding Compliance Program Is Improving
                        Taxpayer Compliance; However, Additional Enforcement
                                        Actions Are Needed



    related tax regulations allowing assertion of a $500 civil penalty for furnishing a false
    statement on Form W-4 (see page 8).

Methodology Used to Measure the Reported Benefit:
We computed the potential increase in Form W-4 civil penalty assessments based on the
21,968 taxpayers5 who were referred by other IRS functions and issued lock-in letters in
FYs 2006 and 2007 because of tax underwithholding. We applied the Internal Revenue Code6
civil penalty of $500 to the 21,968 taxpayers and subtracted the $14,500 in civil penalties that the
IRS assessed in FY 2006 to arrive at $11 million7 [(21,968 taxpayers x $500) - $14,500] in
assessments.




5
  Some of these taxpayers could have provided supporting information, resulting in the Withholding Compliance
Program rescinding the lock-in withholding rate. As a result, these taxpayers would not be subject to the Form W-4
civil penalty because their Forms W-4 would be considered correct. Even though Withholding Compliance Program
management could not provide us with the number of taxpayers who fit this category, we believe that this number
would be fairly small.
6
  Internal Revenue Code Section 6682.
7
  This figure is rounded to the nearest million. The actual amount was $10,969,500.
                                                                                                        Page 20
        The Withholding Compliance Program Is Improving
      Taxpayer Compliance; However, Additional Enforcement
                      Actions Are Needed



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 21
  The Withholding Compliance Program Is Improving
Taxpayer Compliance; However, Additional Enforcement
                Actions Are Needed




                                                  Page 22
  The Withholding Compliance Program Is Improving
Taxpayer Compliance; However, Additional Enforcement
                Actions Are Needed




                                                  Page 23
  The Withholding Compliance Program Is Improving
Taxpayer Compliance; However, Additional Enforcement
                Actions Are Needed




                                                  Page 24
  The Withholding Compliance Program Is Improving
Taxpayer Compliance; However, Additional Enforcement
                Actions Are Needed




                                                  Page 25
  The Withholding Compliance Program Is Improving
Taxpayer Compliance; However, Additional Enforcement
                Actions Are Needed




                                                  Page 26
